January 2007
Report No. 07-003


The FDIC’s Compliance With Section 522 of
the Consolidated Appropriations Act, 2005




             AUDIT REPORT
                                                                                              Report No. 07-003
                                                                                                  January 2007


                                        The FDIC’s Compliance With Section 522 of the
                                        Consolidated Appropriations Act, 2005
                                        Results of Audit
Background and                          The FDIC has established a corporate-wide privacy program to protect
Purpose of Audit                        the IIF it manages from unauthorized disclosure and ensure its
                                        appropriate use consistent with section 522. Of particular note, the
The Federal Deposit Insurance
                                        FDIC has appointed a Chief Privacy Officer (CPO) with overall
Corporation (FDIC) Office of
Inspector General (OIG) contracted      responsibility for the FDIC’s privacy program, issued or drafted
with KPMG LLP (KPMG) to audit           policies and procedures for safeguarding IIF, and posted a privacy
the FDIC’s compliance with section      statement on the FDIC’s public Web site. Additionally, the FDIC has
522 of the Consolidated                 performed privacy impact assessments (PIA) on its systems identified
Appropriations Act, 2005 (Division      as containing IIF, completed required Privacy Act-related reviews, and
H, The Transportation, Treasury,        implemented mandatory Web-based privacy awareness training for its
Independent Agencies, and General       employees and contractors. Further, the FDIC was working to
Government Appropriations Act,          complete a number of key initiatives to strengthen its privacy program
2005) (section 522). Section 522        policies, procedures, and practices and ensure compliance with federal
requires, among other things, that      privacy-related statutes, policies, and guidelines.
agencies establish and implement
comprehensive privacy and data
protection procedures and have an       Consistent with the intent of section 522, our report identifies areas of
independent third-party review          the FDIC’s privacy program warranting continued management
performed of their privacy programs     attention and recommends strategies and specific steps that
and practices.                          management should take to ensure adequate protection of its IIF.
                                        Specifically, the FDIC can enhance its privacy program by integrating
In fulfilling its legislative mandate   its key ongoing and planned program control activities into a formal
of insuring deposits, supervising       documented plan. In addition, (a) physical security of IIF in hardcopy
financial institutions, and managing    format needed improvement; (b) PIAs posted on the FDIC’s public
receiverships, the FDIC creates and     Web site did not always contain sufficient descriptions of the FDIC’s
acquires a significant amount of        collection or use of IIF; and (c) the FDIC’s System Development Life
information in an identifiable form
                                        Cycle (SDLC) processes did not address all relevant aspects of privacy,
(IIF). Such IIF includes names,
addresses, Social Security numbers,     including the role of privacy officials.
phone numbers, dates of birth, and
credit report information. Much of      Recommendations and Management Response
the information managed by the
FDIC falls within the scope of          KPMG recommended that the CPO:
several statutes and regulations
intended to protect such information       •   enhance the FDIC’s privacy program by integrating key
from unauthorized disclosure.                  ongoing and planned program control activities into a formal
                                               documented plan;
The objective of the audit was to          •   implement additional measures to ensure that IIF is properly
(1) evaluate the FDIC’s use of IIF             secured;
and the FDIC’s privacy and data            •   place additional emphasis on employee and contractor
protection procedures and                      awareness to physically safeguard IIF in their custody;
(2) recommend strategies and
specific steps to improve the FDIC’s
                                           •   ensure that PIAs posted on the FDIC’s public Web site
privacy and data protection                    adequately describe the FDIC’s collection and use of IIF; and
management practices.                      •   enhance the FDIC’s SDLC processes to fully address privacy.
__________________________
To view the full report, go to:            The FDIC agreed with the recommendations and is taking
www.fdicig.gov/2007reports.asp             responsive actions.
Federal Deposit Insurance Corporation                                                                 Office of Audits
3501 Fairfax Drive, Arlington, VA 22226                                                  Office of Inspector General


DATE:                                     January 10, 2007

MEMORANDUM TO:                            Michael E. Bartell
                                          Chief Privacy Officer,
                                          Chief Information Officer, and
                                          Director, Division of Information Technology

FROM:                                     Russell A. Rau [Electronically produced version; original signed
                                          by Russell A. Rau]
                                          Assistant Inspector General for Audits

SUBJECT:                                  The FDIC’s Compliance With Section 522 of the Consolidated
                                          Appropriations Act, 2005
                                          (Report No. 07-003)


Attached is a copy of the subject report prepared by KPMG LLP under contract with the Office of
Inspector General. Please refer to the Executive Summary for the overall results of the audit. The
firm’s report is presented as Part I of this document.

A summary and evaluation of your response, the response in its entirety, and the status of the
report’s recommendations are contained in Part II of this document. Your comments on a draft of
this report were responsive to the report’s recommendations. We consider the recommendations to
be resolved, but they will remain open until we have determined that agreed-to corrective actions
have been completed and are effective.

If you have any questions concerning the report, please contact Mark F. Mulholland, Director,
Systems Management and Security Audits, at (703) 562-6316. We appreciate the courtesies
extended to the audit staff during the assignment.


Attachment

cc:        Rack D. Campbell, DIT
           James H. Angel, Jr., OERM
                                               Table of Contents



Part I:

           Report by KPMG LLP
           The FDIC’s Compliance With Section 522 of the
           Consolidated Appropriations Act, 2005 .....................................................................I-1


Part II:

           Corporation Comments and OIG Evaluation............................................................ II-1

           Corporation Comments............................................................................................. II-4

           Management Responses to Recommendations......................................................... II-8
      Part I

Report by KPMG LLP
The FDIC’s Compliance With Section 522 of the
    Consolidated Appropriations Act, 2005
             (Report No. 07-003)


              Prepared for the
    Federal Deposit Insurance Corporation
       Office of the Inspector General



              FINAL REPORT




                      Prepared by:
                       KPMG LLP
            Advisory Services, Federal Practice
                   2001 M Street, NW
                 Washington, DC 20036
                     (202) 533-3000
                                      TABLE OF CONTENTS

INTRODUCTION                                                                                          I-1
BACKGROUND                                                                                            I-2
RESULTS OF AUDIT                                                                                      I-5
STRATEGY FOR ENHANCING CURRENT PRIVACY PROGRAM EFFORTS                                                I-5
DETAILED AUDIT RESULTS                                                                                I-8
PHYSICAL SECURITY OF HARDCOPY IIF                                                                     I-8
PUBLIC DISCLOSURE OF IIF USAGE                                                                       I-10
PRIVACY CONSIDERATIONS IN THE SDLC                                                                   I-12
CORPORATION COMMENTS AND OIG EVALUATION                                                              II-1
CORPORATION COMMENTS                                                                                 II-4
MANAGEMENT RESPONSES TO RECOMMENDATIONS                                                              II-8
APPENDIX I: OBJECTIVE, SCOPE, AND METHODOLOGY                                                        I-15
APPENDIX II: LAWS, STANDARDS, POLICIES, AND GUIDELINES                                               I-16
              PROTECTING PRIVACY-RELATED AND SENSITIVE
              INFORMATION
APPENDIX III: RISK RATINGS                                                                           I-20
APPENDIX IV: FDIC PRIVACY PROGRAM INITIATIVES                                                        I-21
APPENDIX V: AICPA/CICA PRIVACY FRAMEWORK CONCEPTS                                                    I-22
FIGURE 1:     AICPA/CICA PRIVACY FRAMEWORK                                                            I-7
FIGURE 2:     THE FDIC’s PIA PROCESS                                                                 I-11

ACRONYMS
AICPA   American Institute of Certified Public Accountants     PIA    Privacy Impact Assessment
ASA     Application Security Assessment                        PII    Personally Identifiable Information
CICA    Canadian Institute of Chartered Accountants            RUP®   Rational Unified Process
CIO     Chief Information Officer                              SDLC   Systems Development Life Cycle
CPO     Chief Privacy Officer                                  SP     Special Publication
DSC     Division of Supervision and Consumer Protection        SSN    Social Security Number
DIT     Division of Information Technology
DRR     Division of Resolutions and Receiverships
FDIC    Federal Deposit Insurance Corporation
FIPS    Federal Information Processing Standards Publication
PUB
FISMA   Federal Information Security Management Act
GAGAS   Generally Accepted Government Auditing Standards
GPRA    Government Performance and Results Act
IIF     Information in an Identifiable Form
ISM     Information Security Manager
IT      Information Technology
KPMG    KPMG LLP
NIST    National Institute of Standards and Technology
OERM    Office of Enterprise Risk Management
OIG     Office of Inspector General
OMB     Office of Management and Budget
INTRODUCTION

The Federal Deposit Insurance Corporation (FDIC) Office of Inspector General (OIG)
contracted with KPMG LLP (KPMG) to conduct a performance audit of the FDIC’s
compliance with section 522 of the Consolidated Appropriations Act, 2005 (section 522).1
Section 522 requires, among other things, that agencies establish and implement
comprehensive privacy and data protection procedures governing the agency’s collection,
use, sharing, disclosure, transfer, storage, and security of information in an identifiable form
(IIF)2 relating to agency employees and the public. Section 522 also requires agency
Inspectors General to contract with an independent third party to review and report on their
agencies’ privacy programs and practices. The FDIC has determined that section 522 applies
to the Corporation.

The objective of the audit was to (1) evaluate the FDIC’s use of IIF and the FDIC’s privacy
and data protection procedures and (2) recommend strategies and specific steps to improve
the FDIC’s privacy and data protection management practices. As part of the audit, we
followed up on privacy-related issues contained in two previously-issued OIG reports.3 We
conducted our performance audit in accordance with generally accepted government auditing
standards (GAGAS) issued by the Comptroller General of the United States. Those
standards require that we plan and perform the audit to obtain sufficient, appropriate
evidence that provides a reasonable basis for our findings and conclusions based on our audit
objectives. Appendix I describes our objective, scope, and methodology; Appendix II
contains brief descriptions of key privacy-related laws, policies, and guidelines and their
applicability to the FDIC; Appendix III describes the criteria used to assign risk ratings to the
detailed findings contained in this report; Appendix IV provides an overview of the FDIC’s
privacy program initiatives; and Appendix V presents concepts from the global privacy
framework developed by the American Institute of Certified Public Accountants (AICPA)
and Canadian Institute of Chartered Accountants (CICA).




1
    Section 522 is found in Division H of the Consolidated Appropriations Act, 2005, entitled the Transportation,
    Treasury, Independent Agencies, and General Government Appropriations Act, 2005. For convenience, we
    are using “Consolidated Appropriations Act, 2005” in the title of this audit and elsewhere in this report.
2
    The Office of Management and Budget’s (OMB) Memorandum M-03-22, OMB Guidance for Implementing
    the Privacy Provisions of the E-Government Act of 2002, defines IIF as information in an information system
    or an on-line collection that directly identifies an individual (e.g., name, address, Social Security number
    (SSN), or other identifying code, telephone number, e-mail address, etc.) or by which an agency intends to
    identify specific individuals in conjunction with other data elements. Our report uses the term IIF when
    referring to personally identifiable information (PII) to be consistent with section 522. See Appendix II for
    further information about this definition.
3
    The FDIC’s Efforts to Comply with OMB Memorandum M-06-16, Protection of Sensitive Agency Information
    (Report No. 06-020), dated September 2006; and Response to Privacy Program Information Request in
    OMB’s Fiscal Year 2006 Reporting Instructions for FISMA and Agency Privacy Management (Report No.
    06-018), dated September 2006.



                                                       I-1
BACKGROUND

In fulfilling its legislative mandate of insuring deposits, supervising financial institutions, and
managing receiverships, the FDIC creates and acquires a significant amount of IIF. Such IIF
includes names, addresses, SSNs, phone numbers, dates of birth, and credit reports related to
FDIC employees and contractors and depositors and borrowers at FDIC-insured financial
institutions. Much of the information managed by the FDIC and its contractors falls within
the scope of several statutes and regulations intended to protect such information from
unauthorized disclosure. These statutes and regulations include section 522; the Privacy Act
of 1974; section 208 of the E-Government Act of 2002; and Parts 309, Disclosure of
Information, and 310, Privacy Act Regulations, of the FDIC’s Rules and Regulations.
Further, OMB has issued a number of privacy-related policies and guidelines to federal
departments and agencies aimed at protecting IIF.4 In addition, the FDIC has developed
internal policies and procedures to safeguard the IIF the Corporation manages.

Section 522 Requirements

Enacted in December 2004, section 522 directs agencies, including the FDIC, to implement a
number of measures to protect IIF. Such measures include:

      •   Appointing a Chief Privacy Officer (CPO) to assume primary responsibility for
          agency privacy and data protection policy.
      •   Establishing and implementing comprehensive privacy and data protection
          procedures governing the collection, use, sharing, disclosure, transfer, storage, and
          security of IIF relating to agency employees and the public. Such procedures are to
          be consistent with legal and regulatory guidance, including OMB regulations; the
          Privacy Act of 1974; and section 208 of the E-Government Act of 2002.
      •   Preparing a written report, signed by the CPO, that provides a benchmark for the
          agency’s privacy program and describes the agency’s use of IIF, along with its
          privacy and data protection policies and procedures. The report is to be recorded with
          the agency Inspector General.

Section 522 also requires agencies to have an independent, third-party review of the agency’s
use of IIF to (a) determine the accuracy of the agency’s description of IIF use; (b) determine
the effectiveness of privacy and data-protection procedures; (c) ensure compliance with the
stated privacy and data protection policies of the agency and applicable laws and regulations;
and (d) ensure that all technologies used to collect, use, store, and disclose IIF allow for
continuous auditing of compliance with stated privacy policies and practices governing the
collection, use, and distribution of information in the operation of the program. In general,
the review is required to be performed at least every 2 years by a third party with expertise in
privacy under the cognizance of the agency Inspector General. Upon completion of the
review, the agency Inspector General must submit to the agency head a detailed report that
includes recommendations for improvements and enhancements to the agency’s management


4
    See Appendix II for pertinent OMB privacy-related policies and guidelines.



                                                      I-2
of IIF and its privacy and data protection procedures and strategies to improve privacy and
data protection management.

The FDIC’s Privacy Program

The FDIC has established a corporate-wide privacy program consisting of various policies
and procedures for managing and protecting its IIF. These include a corporate policy
directive governing the collection, maintenance, use, and/or dissemination of records subject
to the Privacy Act of 1974; procedures for identifying IIF contained in applications;5 and
procedures for completing privacy impact assessments (PIA)6 of systems containing IIF. In
March 2005, the FDIC appointed a senior official, the Chief Information Officer (CIO), as
the FDIC’s CPO with overall responsibility for the Corporation’s privacy program. The
FDIC also designated a Privacy Program Manager to support the CPO in developing and
implementing corporate privacy requirements. In October 2005, the FDIC implemented
mandatory annual privacy awareness training for its employees and contractors that includes
guidance on protecting IIF and coverage of privacy laws, regulations, and policies. In
addition, the FDIC implemented a privacy program Web site to promote awareness of
privacy requirements, policies, and practices and installed shredding bins in its facilities to
securely dispose of sensitive information, including IIF. Further, as required by section 522,
the CPO provided a written report to the OIG on September 15, 2005, describing the FDIC’s
use of IIF, along with the FDIC’s privacy and data protection policies and procedures.

In addition, the FDIC is in the process of implementing a number of initiatives aimed at
strengthening its privacy program policies, procedures, and practices and ensuring
compliance with privacy-related laws and regulations. Of particular note, the FDIC is
working to:

      •   Identify all IIF maintained by the FDIC’s divisions and offices, regardless of where
          the information is stored (e.g., in network applications; freestanding, limited use, or
          user-created applications; databases; and network shares). Based on the results of this
          effort, the Division of Information Technology (DIT) will determine whether
          additional safeguards are necessary to protect the information and whether public
          disclosure regarding its collection and use is adequate.
      •   Identify all FDIC contractors having custody of privacy-related information, and
          verify whether appropriate safeguards are in place.



5
    The FDIC uses the Application Security Assessment (ASA) document to assess the security of its
    applications. The ASA includes questions for identifying IIF.
6
    A PIA is an analysis of how information is handled to: (1) ensure handling conforms to applicable legal,
    regulatory, and policy requirements regarding privacy; (2) determine the risks and effects of collecting,
    maintaining, and disseminating IIF, and (3) examine and evaluate protections and alternative processes for
    handling information to mitigate potential privacy risks. A PIA is required by the E-Government Act of 2002
    (as implemented by OMB Memorandum M-03-22) to ensure privacy protections, and the requirements of the
    Privacy Act of 1974 are considered when developing or procuring new or modified information technology
    (IT) that contains IIF.



                                                      I-3
      •   Issue several draft corporate-policy directives related to privacy that include guidance
          for the secure storage, transmission, remote access, dissemination/transport, and
          disposal of sensitive information, including IIF.
      •   Confirm that adequate privacy-related controls are in place for systems identified as
          containing IIF by completing the security checklist provided by the National Institute
          of Standards and Technology (NIST).7
      •   Consolidate the annual privacy awareness and security awareness training modules
          into a single program to achieve efficiencies.
      •   Research methods to ensure that technologies used to collect, use, store, and disclose
          IIF allow for continuous auditing of compliance with stated privacy policies and
          practices as required by section 522.

Appendix IV contains a detailed description of the FDIC’s key privacy-related initiatives and
their status as of October 2006.

Protecting IIF is a Government-wide Challenge

Safeguarding IIF from unauthorized disclosure has been, and continues to be, of significant
concern to both the public and the Congress. Common threats associated with the
compromise of IIF include identity theft and consumer fraud. In response to highly
publicized breaches of sensitive personal information at federal agencies, the Committee on
Government Reform of the U.S. House of Representatives (the Committee) requested 19
federal departments and agencies to provide the Committee with information about incidents
involving the loss or compromise of sensitive personal information (i.e., IIF) held by the
agency or its contractors.8 The Committee issued a report, dated October 13, 2006, based on
the information it received, stating that all 19 departments and agencies had experienced at
least 1 loss of IIF since January 1, 2003. The report noted that the majority of these losses
arose from physical thefts of portable computers, drives, and disks, or unauthorized use of
data by agency employees. The Committee’s report concluded that, taken as a whole, the
agencies had identified hundreds of instances of data breaches involving IIF and that each
incident had affected from one individual to as many as millions of individuals. The
Committee’s report emphasizes the criticality of having an effective and comprehensive
privacy program.




7
    OMB’s June 23, 2006 Memorandum M-06-16, Protection of Sensitive Agency Information, recommends that
    agencies complete the NIST checklist. The memorandum also recommends encryption, authentication, and
    logging controls for sensitive information.
8
    The Committee issued the request, dated July 10, 2006, to all Cabinet-level agencies, the Office of Personnel
    Management, and the Social Security Administration.



                                                       I-4
 RESULTS OF AUDIT

 The FDIC has established a corporate-wide privacy program to protect the IIF it manages
 from unauthorized disclosure and ensure its appropriate use consistent with section 522. Of
 particular note, the FDIC has appointed a CPO with overall responsibility for the FDIC’s
 privacy program, issued or drafted corporate policies and procedures for safeguarding IIF,
 and posted a privacy statement on the FDIC’s public Web site. Additionally, the FDIC has
 performed PIAs on its systems identified as containing IIF, completed required Privacy Act-
 related reviews,9 and implemented mandatory Web-based privacy awareness training for its
 employees and contractors. Further, as described in the Background section of this report,
 the FDIC was working to complete a number of key initiatives to strengthen its privacy
 program policies, procedures, and practices and ensure compliance with federal privacy-
 related statutes, policies, and guidelines.

 Consistent with the intent of section 522, our report identifies areas of the FDIC’s privacy
 program warranting continued management attention and recommends strategies and specific
 steps that management should take to ensure adequate protection of its IIF. Specifically, the
 FDIC can strengthen its privacy program by integrating its key ongoing and planned program
 control activities into a formal documented plan. In addition, the FDIC needs to (a)
 implement additional control measures to ensure the physical security of its IIF in hardcopy
 format, (b) ensure that PIAs posted on the FDIC’s public Web-site adequately describe the
 FDIC’s collection and use of IIF, and (c) fully address privacy-related considerations in its
 System Development Life Cycle (SDLC)10 processes. Such actions will help ensure that IIF
 managed by the FDIC is adequately protected and that the FDIC’s privacy practices are
 consistent with section 522 and related statutes, policies, and procedures.

 STRATEGY FOR ENHANCING CURRENT PRIVACY PROGRAM EFFORTS

 Section 522 requires that independent third-party reviews of agency privacy programs
 recommend strategies and specific steps to improve the agencies’ privacy and data protection
 management. As part of this review, we have identified one such strategy that the FDIC can
 implement to strengthen its privacy program management. Although not mandated by statute
 or regulation, the FDIC can enhance its privacy program by documenting a formal,
 comprehensive plan that integrates the Corporation’s privacy program goals and objectives,
 performance measures, organization and relationship of key initiatives, training and
 awareness strategy, and methods for reporting.

 The FDIC established a corporate-wide privacy program and was working diligently to
 address current and emerging privacy-related requirements. As discussed in the Background
 section of this report, the FDIC was working on initiatives to identify all FDIC- and

 9
     OMB Circular No. A-130, Management of Federal Information Resources, Appendix I, Federal Agency
     Responsibilities for Maintaining Records About Individuals, requires agencies to perform various reviews of
     compliance with certain provisions of the Privacy Act of 1974. See Appendix II for details.
10
     The SDLC is a process for developing information systems through several phases, each comprised of
     multiple steps.



                                                        I-5
contractor-maintained IIF throughout the Corporation, develop new privacy policy directives,
enhance the Corporation’s privacy awareness training, and ensure adequate controls are in
place to protect privacy data in applications. The FDIC was also performing a number of
ongoing privacy activities, such as conducting and reporting PIAs, providing awareness
training to employees and contractor personnel, and addressing new OMB privacy
requirements. FDIC privacy officials (i.e., the CPO and Privacy Program Manager) were
coordinating these initiatives and activities with various internal organizations and corporate
officials, such as the FDIC’s CIO Council, Legal Division, and systems owners throughout
the Corporation. Also, privacy officials were preparing various privacy-related reports and
briefings for FDIC management, OMB, and the Congress.11

Although the FDIC developed the IT Strategic Plan 2004 – 2007 and the Information
Security Strategic Plan 2006 – 2007 to help manage its IT and security program activities,
these plans do not address privacy activities. The FDIC could enhance its privacy program
management by integrating its key ongoing and planned program control activities into a
formal, comprehensive documented plan. Such a plan would promote integration of the
FDIC’s:12

     •   Privacy program goals and objectives.
     •   Performance measures to assess the extent to which the FDIC is achieving its privacy
         program goals and objectives.13
     •   Privacy program roles and responsibilities.
     •   Organization and relationship of key FDIC initiatives that support its privacy program
         goals and objectives.
     •   Training and awareness to foster an improved control environment and a corporate
         culture that emphasizes the importance of the protection of IIF. Although the FDIC’s
         efforts to identify its IIF are not yet complete, we observed that additional training
         and awareness on what IIF is and where it can reside (e.g., in standalone systems,
         databases, and network shares) would be helpful to system owners responsible for
         identifying IIF.
     •   Methods for reporting privacy program activities and remedial actions.




11
   Such reporting includes, but is not limited to, the FDIC’s annual privacy reporting required by the Federal
   Information Security Management Act of 2002 (FISMA), biennial reporting required by section 522, and
   periodic status reporting to the FDIC Operating Committee, OIG, and others.
12
   The FDIC could address some of these items (in whole or in part) in other corporate plans, such as its
   Corporate Annual Performance Plan, IT Strategic Plan, and Information Security Strategic Plan.
   Additionally, at the time of our audit, the FDIC was considering the inclusion of two measures in its 2007
   Corporate Performance Objectives to enhance its privacy program.
13
   Developing strategic plans, setting performance goals, and reporting results is a fundamental tenet of the
   Government Performance and Results Act of 1993 (GPRA). GPRA requires agencies, including the FDIC,
   to measure how program activities accomplish agency strategic goals and objectives.

                                                      I-6
In May 2006, the AICPA/CICA published a global privacy framework entitled, Generally
Accepted Privacy Principles (the Framework).14 The principles contained in the Framework
are based on current international privacy regulatory requirements and industry-accepted
practices and are designed to be applied to any organization’s privacy program. Although
the FDIC is not required to adhere to the Framework, it does contain certain business
practices that can benefit the FDIC’s privacy program.

Figure 1 identifies five          Figure 1: AICPA/CICA Privacy Framework
primary activities associated
with managing a privacy
program as defined by the
Framework. The first             Source: AICPA/CICA Generally Accepted Privacy Principles.
activity, Strategizing,
involves the development of an “overall master plan” to ensure that the organization’s efforts
are headed in a common direction. The plan defines, among other things, the strategic
direction of the organization’s privacy program, the organization’s long-term goals and major
issues for becoming privacy-compliant, processes for achieving goals and milestones, and a
mechanism for communicating critical privacy program information. The remaining four
activities in Figure 1 flow from Strategizing.

As previously discussed, the FDIC has established a corporate-wide privacy program.
Implementing such a program is a major, multi-year effort requiring sustained coordination
among divisions and offices throughout the Corporation. Documenting a comprehensive
plan that integrates key aspects of the Corporation’s privacy program as described above will
facilitate the proactive identification of potential program gaps, weaknesses, and
redundancies. Such a plan could also further facilitate integration of ongoing and planned
privacy program activities, help address current and emerging privacy requirements, and
promote sound program governance.

Recommendation

We recommend that the FDIC CPO:

       1. Enhance the FDIC’s privacy program by integrating key ongoing and planned
          program control activities into a formal documented plan.




14
     Appendix V contains additional information on the Framework. See also
     http://infotech.aicpa.org/Resources/Privacy/Generally+Accepted+Privacy+Principles/.



                                                      I-7
DETAILED AUDIT RESULTS

PHYSICAL SECURITY OF HARDCOPY IIF

Risk Rating: Moderate

Condition

The FDIC has taken a number of steps to ensure the physical security of hardcopy IIF and IIF
stored on portable storage media such as compact disks, flash drives, and microfiche. Such
measures included placing lockable file cabinets and secure storage facilities in FDIC
buildings, providing employees and contractors with guidance on how to protect sensitive
information through security awareness training, and issuing advisories to employees and
contractor personnel through global e-mail messages and the FDIC’s privacy Web site.
However, additional measures are needed. On October 17, 2006, KPMG and OIG staff
performed walkthroughs of selected floors in FDIC buildings located in Washington, D.C.;
Arlington, Virginia; and Dallas, Texas, and found 15 separate instances in which significant
amounts of IIF stored in hardcopy format and on portable storage media had not been
properly secured.15 Unsecured IIF included employee names, addresses, and SSNs; borrower
SSNs, borrower loan numbers, court records, and death certificates; and one instance of an
individual’s name and credit card number. Generally, the IIF was stored in unlocked file
cabinets, unsecured file rooms, and boxes placed in hallways and other building common
areas.

Although physical access controls such as security guards and identification badges were in
place to restrict building entry to only authorized personnel and visitors, further restrictions
to ensure the principle of least privilege16 were not in place. We immediately notified the
FDIC’s Computer Security Incident Response Team of the unsecured IIF that we identified
during our walkthroughs and were advised that prompt corrective action was taken to secure
the information.

Cause

Although the FDIC had taken some steps to promote awareness of the need to secure IIF, the
Corporation was not monitoring employee and contractor compliance with physical IIF
security requirements. Such monitoring could include, for example, performing periodic
walkthroughs of FDIC facilities to determine whether IIF is properly secured. Employees
and contractor personnel are less likely to leave IIF unsecured if compliance controls are in
place. Additionally, the FDIC had not implemented procedures for visibly marking all
documents containing IIF to heighten awareness of the need to protect such information.
15
   The OIG reported weaknesses in the FDIC’s physical security of sensitive information, including IIF, in its
   September 2006 reports entitled, Independent Evaluation of the FDIC’s Information Security Program-2006
   (Report No. 06-022) and DRR's Protection of Bank Employee and Customer Personally Identifiable
   Information (Report No. 06-017).
16
   Least privilege refers to the concept of restricting access to information resources to the minimum level
   necessary to perform a specific function (e.g., job duty).



                                                     I-8
Further, the FDIC had drafted, but not yet issued, a corporate directive defining guidelines
for the protection of sensitive electronic and hardcopy information (including IIF), such as
storing documents containing sensitive information in locked file drawers when not in use,
and never leaving portable IT equipment unattended.

Additional emphasis on employee awareness is warranted until such time as FDIC
divisions and offices determine that IIF is being consistently secured throughout the
Corporation. Such emphasis could be in the form of advisories in the annual privacy
awareness training, reminders from division and office information security managers,
and awareness briefings in division and office conferences. Additional considerations
may include the implementation of a clean-desk policy and the labeling of sensitive
documents and files, including those containing IIF.

Criteria

The Privacy Act of 1974 states that agencies shall establish appropriate administrative,
technical, and physical safeguards to ensure the security and confidentiality of records and
to protect against any anticipated threats or hazards to their security or integrity which
could result in substantial harm, embarrassment, inconvenience, or unfairness to any
individual about whom information is maintained. The FDIC CPO issued a global e-mail
message on July 26, 2006 directing all employees and contractor personnel to “secure
hard copies of PII [i.e., IIF] until they are properly disposed…safeguard hard copies in
your work areas, and shred them when they are not longer needed.” Subsequent global
e-mail messages from the CPO reiterated the responsibilities of employees and contractor
personnel to secure IIF.

The FDIC’s security awareness training instructs employees and contractor personnel to
protect sensitive data in both electronic and hardcopy formats from disclosure to
unauthorized individuals or groups. The awareness training states, “Leaving diskettes and
CD's lying around is tantamount to leaving your computer turned on without a password-
protected screen saver. They are easily taken and used by anyone with access to a
computer. If you have important and/or confidential information on a diskette or CD, take
care to store it properly in a locked drawer.” Further, the FDIC’s internal Web site,
Protecting Sensitive Information, states, “whenever sensitive information is stored on
portable media or printed out in hard copy, such information should be kept secure and in
a locked file cabinet when appropriate.”

Effect

Absent appropriate measures to ensure that IIF is properly secured in FDIC facilities, the
FDIC is at increased risk of a potential unauthorized disclosure or compromise of IIF.
Such a compromise could result in individual identity theft and unnecessary costs to the
Corporation resulting from remediation efforts (such as notifications to affected
individuals and potential credit monitoring services). In addition, unauthorized access to,
and use of, IIF poses considerable risk to the FDIC’s reputation, as well as to the
individuals whose data is not protected.


                                             I-9
Recommendations

We recommend the FDIC CPO:

     2. Implement additional control measures to ensure IIF is properly secured. Such
        measures could include marking documents containing IIF and performing
        periodic, unannounced walkthroughs of FDIC facilities and reporting the results to
        appropriate management officials.

     3. Place additional emphasis on employee and contractor awareness to physically
        safeguard IIF in their custody as previously discussed in this report.


PUBLIC DISCLOSURE OF IIF USAGE

Risk Rating: Moderate

Condition

The FDIC has established a formal process for conducting PIAs17 of its applications and
systems that contain IIF and posted PIAs on its public Web site. However, PIAs posted
on the FDIC’s public Web site did not always contain sufficient information regarding the
collection or use of IIF as described in OMB policy and section 208 of the E-Government
Act of 2002. We judgmentally selected 15 of the 43 PIAs posted on the FDIC’s public
Web site as of October 27, 2006 and found that 6 of the 15 PIAs did not disclose all types
of IIF collected and/or stored by the application.18 In addition, 3 of the 15 PIAs that we
reviewed did not adequately describe how or why the IIF contained in the application was
being used. PIAs for these three applications provided a general description of the
application rather than a description of the intended use of each type of IIF collected or
stored.




17
   The purpose of a PIA is to analyze and publicly disclose how personal information is collected, used, stored,
   shared, and protected by government agencies.
18
   Of the six PIAs, two did not disclose any types of IIF collected by the application. The remaining four PIAs
   did not disclose at least one type of IIF (e.g., date of birth, home telephone number, or bank account
   number) collected by the application.



                                                     I-10
Cause                                                         Figure 2: The FDIC’s PIA Process
                                                              Source: KPMG Analysis.
As reflected in Figure 2, the FDIC’s PIA process
consists of three key documents: (1) a formal PIA
Procedures document containing detailed instructions
and examples to assist division and office personnel in
conducting PIAs, (2) a PII Questionnaire to aid FDIC
personnel in identifying IIF, and (3) a PIA Template to
document the results of PIA work and later post to the
FDIC’s public Web site. Because questions in the PIA
Template are more general than the PIA Procedures
document and PII Questionnaire, the PIA Template did
not always ensure that individuals responsible for
completing PIAs provided specific information
regarding IIF collection and use. As a result, PIAs
posted on the FDIC’s public Web site did not always
include prescribed privacy-related information that
detailed the type of information collected, the reason(s)
why the information was collected, and the intended use
of the information.

On October 31, 2006, a DIT official informed us that
efforts were underway to combine the PIA Template and
PII Questionnaire into a single document. Such
streamlining should improve the efficiency of the
FDIC’s PIA process and provide additional assurance
that PIAs posted on the FDIC’s public Web site are
consistent with privacy-related requirements. The FDIC
should also consider additional reviews of PIA content by appropriate officials prior to
public posting of PIAs to ensure they sufficiently address IIF collection and use.

Criteria

In general, Section 208 of the E-Government Act of 2002 requires agencies to conduct
PIAs of all information systems containing IIF and make the completed PIAs available to
the public. The Act requires that published PIAs describe, among other things, what
information is to be collected, why the information is being collected, and the agency’s
intended use of the information. OMB Memorandum M-03-22, OMB Guidance for
Implementing the Privacy Provisions of the E-Government Act, provides details on the
required content of PIAs. Among other things, the OMB memorandum states that PIAs
must analyze and describe the type of information to be collected (e.g., nature and source);
why the information is being collected (e.g., to determine eligibility); and the intended use
of the information (e.g., to verify existing data).




                                             I-11
Effect

PIAs are intended to promote the public trust through increased transparency and
assurances that personal information is protected. Absent full disclosure of this
information, the Corporation’s use of IIF may not be clearly understood by the public
through reviews of published PIAs.

Recommendations

We recommend that the FDIC CPO:

     4. Review all PIAs posted on the FDIC’s public Web site to determine whether they
        disclose all types of IIF used by the application and sufficiently describe the
        FDIC’s use of IIF consistent with OMB policy and section 208 of the
        E-Government Act of 2002.

     5. Enhance current processes for preparing and publicly posting PIAs to ensure that
        new PIAs adequately describe the FDIC’s collection and use of IIF consistent with
        OMB policy and section 208 of the E-Government Act of 2002.

PRIVACY CONSIDERATIONS IN THE SDLC

Risk Rating: Low

Condition

The FDIC adopted the Rational Unified Process (RUP®)19 SDLC methodology in 2004
and tailored the RUP® to meet the specific needs of the Corporation. Of particular note,
the FDIC tailored the RUP® to address information security requirements applicable to
each phase of the SDLC and describe the roles of key corporate committees and personnel
involved in the SDLC.20 One such requirement includes the completion of an ASA that
includes steps for identifying IIF in systems under development.21 However, the FDIC’s
SDLC processes do not fully address privacy considerations. Such privacy considerations
include, for example, the role of privacy officials, such as the CPO and Privacy Program
Manager, in the development, maintenance, and disposal of information systems. Privacy
considerations also include ensuring that IIF protection needs are addressed throughout a
system’s life cycle.22 Addressing such privacy considerations during the SDLC will

19
   RUP® is an iterative and risk-based methodology for developing information systems. RUP® is a registered
   trademark of Rational Software Corporation, a wholly-owned subsidiary of the International Business
   Machines (IBM®) Corporation.
20
   Such committees and personnel include the Capital Investment Review Committee, CIO Council, Enterprise
   Architecture Board, Program Management Office, and DIT Information Security Staff.
21
   In the event the ASA identifies the presence of IIF, completion of a PIA for the system is required.
22
   Such protection needs are dynamic because privacy requirements and risks change over time. Examples
   include encrypting IIF stored in databases, suppressing IIF data when printed on paper, and generating audit
   trails of IIF data downloads.



                                                     I-12
provide the FDIC with greater assurance that privacy requirements are identified and
addressed in an efficient and timely manner during systems development and
implementation.

Cause

A number of new privacy-related requirements have been imposed on federal agencies in
recent years in response to reports of security breaches involving IIF. Such privacy
requirements include security control and reporting provisions contained in section 522
and privacy safeguards described in OMB policy memoranda. As discussed in the
Background section of this report, the FDIC was working to implement a number of key
initiatives aimed at addressing new and emerging privacy requirements. Because the
FDIC’s privacy program is relatively new and evolving, the Corporation had not yet fully
addressed privacy considerations in its SDLC processes.

We spoke with DIT personnel and FDIC privacy officials about the importance of privacy
considerations in the SDLC. A DIT official informed us that FDIC system developers use
an electronic requirements template as part of the FDIC’s SDLC processes. The template
contains requirements, such as NIST-recommended security controls and standards for
complying with section 508 of the Rehabilitation Act,23 that developers consider when
developing systems. The DIT official indicated that privacy considerations could be
added to the requirements template to ensure that privacy is adequately considered in the
SDLC process. We agree that modifying the requirements template would be a prudent
step toward addressing privacy in the FDIC’s SDLC processes.

Criteria

The SDLC is a key control for ensuring that security and privacy are integrated into the
life-cycle planning and management of information systems. NIST Special Publication
(SP) 800-64, Security Considerations in the Information Systems Development Life Cycle,
describes key roles and responsibilities associated with information systems development,
including the role of the privacy officer. According to the publication, privacy officers
and other officials play a critical role in ensuring that systems meet existing privacy
policies regarding protection, dissemination (information sharing and exchange), and
information disclosure. In addition, NIST SP 800-64 states that the process of identifying
functional requirements should include an analysis of relevant laws and regulations,
including the Privacy Act of 1974. Although the FDIC is not required to comply with
NIST SP 800-64, it contains prudent business practices related to privacy that the FDIC
should voluntarily adopt.



23
     Section 508 requires federal agencies that develop, procure, maintain, or use electronic and IT systems to
     ensure that federal employees and members of the public with disabilities have access to and use of
     information and data, comparable to that of the employees and members of the public without disabilities,
     unless it is an undue burden to do so. The FDIC has determined that it is not legally bound to follow section
     508 but does so as a matter of policy.



                                                        I-13
Effect

According to NIST SP 800-64, information security is most effective when it is integrated
into the SDLC methodology from its inception. Industry research has shown that
addressing IT requirements early in a system’s life-cycle development is less costly than if
the requirements are addressed in later life-cycle phases. Ensuring that privacy
considerations are fully addressed in the FDIC’s SDLC processes will promote a defined
and repeatable approach for incorporating privacy controls into new systems and provide
FDIC management greater assurance that privacy requirements are identified and
addressed in an efficient and effective manner. Such efforts will also help ensure that the
confidentiality and integrity of IIF are maintained.

Recommendation

We recommend that the FDIC CPO:

    6. Enhance the FDIC’s SDLC processes to fully address privacy considerations.




                                            I-14
                                                                          APPENDIX I



                  OBJECTIVE, SCOPE, AND METHODOLOGY

The objective of the audit was to (1) evaluate the FDIC’s use of IIF and the FDIC’s
privacy and data protection procedures and (2) recommend strategies and specific steps to
improve the FDIC’s privacy and data protection management practices. KPMG
conducted its performance audit in accordance with GAGAS issued by the Comptroller
General of the United States. Those standards require that we (i.e., KPMG) plan and
perform the audit to obtain sufficient, appropriate evidence that provides a reasonable
basis for our findings and conclusions based on our audit objectives.

To accomplish the audit objective, KPMG leveraged prior audit work as described in the
OIG’s September 2006 reports entitled, The FDIC’s Efforts to Comply with OMB
Memorandum M-06-16, Protection of Sensitive Agency Information (Report No. 06-020);
and Response to Privacy Program Information Request in OMB’s Fiscal Year 2006
Reporting Instructions for FISMA and Agency Privacy Management (Report
No. 06-018). Also, KPMG interviewed key FDIC privacy, security, and program office
officials who had responsibility for implementing the FDIC’s privacy program and
complying with the requirements described in section 522 and OMB Memorandum
M-06-16. KPMG reviewed relevant security- and privacy-related policies, procedures,
and guidelines that address the control measures described in section 522. In addition,
KPMG reviewed the FDIC’s established procedures and guidance for performing PIAs
and sampled a selection of publicly-posted PIAs for compliance with section 208 of the
E-Government Act of 2002. Further, KPMG selected a sample of information systems to
assess the progress of the FDIC’s efforts to identify applications containing IIF. KPMG
interviewed the business owners of the selected information systems to become familiar
with processes used to identify IIF. KPMG also reviewed the FDIC’s Web sites and
Intranet and leveraged scans of the FDIC’s network performed as part of the FISMA
audit efforts to identify the presence of IIF. To evaluate physical protections over IIF,
KPMG and the OIG performed walkthroughs of three FDIC facilities in Washington,
D.C.; Arlington, Virginia; and Dallas, Texas.

KPMG did not evaluate program performance measures. In addition, KPMG did not
perform procedures to determine the validity or reliability of computer-based data
because such procedures were not critical to satisfying the audit’s objectives. KPMG
conducted alternative procedures to determine the presence of IIF data and the status of
privacy initiatives, such as interviews of application owners. In addition, KPMG’s
assessments of the FDIC’s management controls and compliance with laws and
regulations were limited to those related to privacy, particularly those dealing with
agency privacy-management requirements. Further, KPMG did not design tests to detect
fraud, waste, abuse, and mismanagement. However, throughout the audit, KPMG was
sensitive to the potential for fraud, waste, abuse, and mismanagement. KPMG conducted
its work at the FDIC’s offices in Arlington, Virginia; and Washington, D.C., during
October 2006. The FDIC OIG performed certain other audit procedures at the FDIC’s
offices in Dallas, Texas.



                                          I-15
                                                                                  APPENDIX II


       LAWS, STANDARDS, POLICIES, AND GUIDELINES PROTECTING
           PRIVACY-RELATED AND SENSITIVE INFORMATION

In addition to requirements in section 522 of the Consolidated Appropriations Act, 2005, a
number of federal statutes, standards, policies, and guidelines are aimed at protecting IIF
from unauthorized use, access, disclosure, or sharing and associated information systems
from unauthorized access, modification, disruption, or destruction. Brief descriptions of key
privacy-related statutes, policies, and guidelines and their applicability to the FDIC follow.

•   The Privacy Act of 1974 imposes various requirements for federal agencies whenever
    they collect, create, maintain, and distribute records (as defined in the Act, and
    regardless of whether they are in hardcopy or electronic format) that can be retrieved by
    the name of an individual or other identifier. One such requirement is to establish
    appropriate administrative, technical, and physical safeguards to ensure the security and
    confidentiality of records and to protect against any anticipated threats or hazards to their
    security or integrity which could result in substantial harm, embarrassment,
    inconvenience, or unfairness to any individual about whom information is maintained.
    As a federal agency, the FDIC is subject to the requirements of the Act. The Act can be
    located at http://www.usdoj.gov/oip/privstat.htm.

•   The E-Government Act of 2002, section 208, requires agencies to (1) conduct PIAs of
    information systems and collections and, in general, make PIAs publicly available;
    (2) post privacy policies on agency Web sites used by the public; (3) translate privacy
    policies into a machine-readable format; and (4) report annually to the OMB on
    compliance with section 208. The FDIC has determined that it is subject to the
    requirements of this provision. The Act can be located at
    http://www.cio.gov/archive/e_gov_act_2002.pdf.

•   Federal Information Processing Standards Publication (FIPS PUB) 199, Standards
    for Security Categorization of Federal Information and Information Systems,
    describes standards to be used by all federal agencies to categorize all information and
    information systems collected or maintained by or on behalf of each agency based on the
    objectives of providing appropriate levels of information security according to a range of
    impact levels. This publication establishes security categorization standards for
    information and information systems based on the potential impact on an organization
    should certain events occur that jeopardize the information and information systems
    needed by the organization to accomplish its mission, protect its assets, fulfill its legal
    responsibilities, maintain its day-to-day functions, and protect individuals. By its terms,
    this publication is not legally binding on the FDIC, but the FDIC intends to follow its
    principles. The publication can be located at http://csrc.nist.gov/publications/fips/fips199/FIPS-
    PUB-199-final.pdf.

•   NIST SP 800-64, Security Considerations in the Information Systems Development
    Life Cycle, provides a framework for incorporating security into all phases of the
    information SDLC process, from initiation to disposal. Included within the framework
    are requirements to consider privacy protection measures in accordance with relevant
    privacy-related federal guidance. The provisions of this publication are non-mandatory.


                                                I-16
                                                                                  APPENDIX II

    The publication can be located at http://csrc.nist.gov/publications/nistpubs/800-64/NIST-SP800-
    64.pdf.

•   NIST SP 800-30, Risk Management Guide for Information Technology Systems,
    provides a foundation for the development of an effective risk management program,
    containing both the definitions and the practical guidance necessary for assessing and
    mitigating risks identified within IT systems. The publication also provides information
    on the selection of cost-effective security controls. Such controls can be used to mitigate
    risk for the better protection of mission-critical information and the IT systems that
    process, store, and carry this information. The publication can be located at
    http://csrc.nist.gov/publications/nistpubs/800-30/sp800-30.pdf.

•   OMB Circular No. A-130, Management of Federal Information Resources,
    Appendix I, Federal Agency Responsibilities for Maintaining Records about
    Individuals, describes agency responsibilities for implementing the reporting and
    publication requirements of the Privacy Act of 1974. The FDIC has determined that
    OMB Circular No. A-130, Appendix I, applies to the Corporation. Subsequent OMB
    policy provides additional information regarding agency responsibilities for designating
    a senior agency official for privacy, conducting PIAs, developing privacy policies for
    Web sites, providing privacy education to employees and contractor personnel, and
    reporting privacy activities. The circular can be located at
    http://www.whitehouse.gov/omb/circulars/a130/a130trans4.pdf.

•   OMB Memorandum M-03-18, Implementation for the E-Government Act of 2002,
    provides agencies information on implementing the E-Government Act of 2002. The
    guidance (1) outlines federal agency requirements related to the E-Government Act of
    2002; (2) explains the information agencies are expected to provide under the
    E-Government Act of 2002 to support ongoing initiatives and new activities, including
    reports; (3) explains how the E-Government Act of 2002 authorizes certain ongoing
    government-wide initiatives; and (4) explains how the E-Government Act of 2002 fits
    within existing IT policy, such as policies included in OMB Circulars A-11,
    Preparation, Submission, and Execution of the Budget; and A-130, Management of
    Federal Information Resources. According to the FDIC, to the extent that the provisions
    of OMB Memorandum M-03-18 are legally binding on the FDIC, the FDIC has taken
    steps to implement those provisions or has otherwise taken them into account. The
    memorandum can be located at http://www.whitehouse.gov/omb/memoranda/m03-18.pdf.

•   OMB Memorandum M-03-22, OMB Guidance for Implementing the Privacy
    Provisions of the E-Government Act of 2002, provides information to agencies on
    implementing the privacy provisions of the E-Government Act of 2002, particularly
    section 208. The guidance directs agencies, including the FDIC, to conduct reviews of
    how IT is used to collect information about individuals or when agencies develop or buy
    new IT systems to handle collections of IIF, the definition of which appears in footnote 2
    of this report. OMB’s definition implements the E-Government Act’s definition of
    “identifiable form,” namely, “any representation of information that permits the identity
    of an individual to whom the information applies to be inferred by either direct or
    indirect means.” Section 522 incorporates this statutory definition. We believe that


                                                I-17
                                                                           APPENDIX II

    using OMB’s definition of IIF is appropriate in connection with section 522 because,
    according to section 522, its definition of “identifiable form” is consistent with the
    E-Government Act’s definition of the term. This memorandum replaces OMB
    memoranda 99-18, Privacy Policies on Federal Web Sites; and 00-13, Privacy Policies
    and Data Collection on Federal Web Sites. The memorandum can be located at
    http://www.whitehouse.gov/omb/memoranda/m03-22.html.

•   OMB Memorandum M-05-08, Designation of Senior Agency Officials for Privacy,
    requests that agencies designate a senior official for privacy. The FDIC complied with
    the memorandum by designating the CIO as the senior agency official. The
    memorandum can be located at http://www.whitehouse.gov/omb/memoranda/fy2005/m05-08.pdf.

•   OMB Memorandum M-06-15, Safeguarding Personally Identifiable Information,
    describes responsibilities and policy for appropriately safeguarding sensitive PII and for
    training employees on their responsibilities in this area. OMB requires the senior agency
    official for privacy to conduct a review of policies and processes and take corrective
    action as appropriate to ensure adequate safeguards exist to prevent misuse or authorized
    access to PII. Any weaknesses are to be identified in a security plan of action and
    milestones required by FISMA. According to the FDIC, to the extent that the provisions
    of OMB Memorandum M-06-15 are legally binding on the FDIC, the FDIC has taken
    steps to implement those provisions or has otherwise taken them into account. The
    memorandum can be located at http://www.whitehouse.gov/omb/memoranda/fy2006/m-06-15.pdf.

•   OMB Memorandum M-06-16, Protection of Sensitive Agency Information, includes a
    checklist for agency use for protecting PII that is remotely accessed or transported
    outside the agency. The checklist is based on NIST SPs 800-53, Recommended Security
    Controls for Federal Information Systems; and 800-53A, Guide for Assessing the
    Security Controls in Federal Information Systems (Second Public Draft). In addition,
    M-06-16 recommends the encryption of all data on mobile computers/devices that carry
    sensitive data, two-factor authentication for remote access, “time-out” functions for
    remote access and mobile devices, and the logging of all computer-readable data extracts
    from databases containing sensitive information. According to the FDIC, to the extent
    that the provisions of OMB Memorandum M-06-16 are legally binding on the FDIC, the
    FDIC has taken steps to implement those provisions or has otherwise taken them into
    account. The memorandum can be located at
    http://www.whitehouse.gov/omb/memoranda/fy2006/m06-16.pdf.

•   OMB Memorandum M-06-19, Reporting Incidents Involving Personally Identifiable
    Information and Incorporating the Cost for Security in Agency Information
    Technology Investments, provides updated guidance on the reporting of security
    incidents involving PII and explains the requirements agencies will need to address
    regarding security and privacy in fiscal year 2008 budget submissions for IT. This
    guidance requires all agencies to report all suspected or confirmed breaches involving
    PII in an electronic or physical form within 1 hour of discovering the incident to U.S.
    Center Emergency Readiness Team, a federal incident response center located within the
    Department of Homeland Security. According to the FDIC, to the extent that the
    provisions of OMB Memorandum M-06-19 are legally binding on the FDIC, the FDIC


                                             I-18
                                                                                APPENDIX II

    has taken steps to implement those provisions or has otherwise taken them into account.
    The memorandum can be located at http://www.whitehouse.gov/omb/memoranda/fy2006/m06-
    19.pdf.

•   OMB Memorandum M-06-20, FY 2006 Reporting Instructions for the Federal
    Information Security Management Act and Agency Privacy Management, directs
    senior agency officials for privacy to answer a series of questions about their agency’s
    privacy programs. These questions are based, in part, on agency implementation of the
    privacy provisions of the E-Government Act of 2002. In addition, the memorandum
    requires the agency officials to report on the results of privacy program reviews and
    identify physical or electronic incidents involving the loss of or unauthorized access to
    IIF. The memorandum also requests that agency IGs provide information about their
    agency’s privacy program and related activities, as appropriate, and provide a list of any
    systems not included in the agency’s inventory of major information systems. The
    FDIC’s practice is to comply with OMB’s reporting guidance. The memorandum can be
    located at http://www.whitehouse.gov/omb/memoranda/fy2006/m06-20.pdf.

•   OMB Memorandum, Recommendations for Identity Theft Related Data Breach
    Notification, recommends agencies establish a core management group responsible for
    responding to the loss of personal information that poses the subsequent risk of identity
    theft. The group is to plan for contingencies in the event of a breach, evaluate the risk of
    identity theft associated with realized data losses, and take appropriate actions based on
    the determined risk. The FDIC considers this memorandum a background discussion
    paper that provides recommendations for agencies for planning and responding to data
    breaches. The memorandum can be located at
    http://www.whitehouse.gov/omb/memoranda/fy2006/task_force_theft_memo.pdf.

•   FDIC Rules and Regulations. Part 309, Disclosure of Information, sets forth the basic
    policies of the FDIC regarding the information it maintains and the procedures for
    obtaining access to such information. Part 310, Privacy Act Regulations, establishes
    regulations implementing the Privacy Act of 1974 by delineating the procedures that an
    individual must follow in exercising his or her access or amendment rights under the
    Privacy Act of 1974 to records maintained by the Corporation in systems of record.
    FDIC Rules and Regulations Part 309 can be located at
    http://www.fdic.gov/regulations/laws/rules/2000-3800.html. FDIC Rules and Regulations Part
    310 can be located at http://www.fdic.gov/regulations/laws/rules/2000-3900.html.

•   FDIC Circular 1031.1, Administration of the Privacy Act, establishes requirements for
    the collection, maintenance, use, and dissemination of records subject to the Privacy Act
    of 1974.

•   Division of Information Technology IT Policy Memorandum, Cookies in Internet
    Products, establishes the policy and standard for the use of cookies in Internet, FDICnet,
    and extranet-type products developed or deployed by the FDIC.




                                             I-19
                                                                            APPENDIX III



                                     RISK RATINGS

Based on our experience and knowledge of industry practices, we assessed the risk
associated with each control weakness described in the report and assigned a risk rating
of High, Moderate, or Low. We based each risk rating on an analysis of our underlying
audit work, and each rating required professional judgment as to the relative risk and
significance of control strengths and weaknesses. We based our assessments of risk, in
part, on concepts defined in FIPS PUB 199, Standards for Security Categorization of
Federal Information and Information Systems, and risk definitions contained in NIST SP
800-30, Risk Management Guide for Information Technology Systems.

A High Risk rating indicates a condition that could directly result in unauthorized access
to internal networks or systems, a severe loss of data integrity, or a severe loss of system
availability. NIST SP 800-30 describes a risk as “High” if “there is a strong need for
corrective measures. An existing system may continue to operate, but a corrective action
plan must be put in place as soon as possible.”

A Moderate Risk rating is a condition that alone would not result in unauthorized access
but does provide significant capability or information that could be directly used in
conjunction with other information or tools to gain unauthorized access to internal
systems. In regard to the security control objectives of integrity and availability, a
moderate risk condition represents a condition that may have a serious adverse affect on
data integrity or a serious loss of system availability. NIST SP 800-30 states that if a
moderate risk is observed, then corrective actions are needed, and a plan must be
developed to incorporate these actions within a reasonable period of time.

A Low Risk rating is a condition that does not directly lead to compromise of internal
systems but demonstrates an incomplete approach to security. In regard to the security
control objectives of integrity and availability, a low-risk condition represents a condition
that may have a limited adverse affect on data integrity or a limited loss of system
availability. NIST SP 800-30 characterizes a risk as “Low” if, “The system’s Designated
Approving Authority must determine whether corrective actions are still required or
decide to accept the risk.”




                                            I-20
                                                                                       APPENDIX IV



                        FDIC PRIVACY PROGRAM INITIATIVES

Privacy Area                  Initiative                         Status of Initiative as of October 20, 2006
Privacy        1. Increase privacy program staffing.       1. Ongoing.
Governance/    2. Develop a corporate-wide policy to       2. A corporate-wide policy to address the requirements
Policy            address the protection of sensitive         of the protection of sensitive information has been
                  agency information, including IIF,          drafted but not yet issued. Interim policy in the
                  and recent OMB requirements.                form of global e-mails and divisional guidance has
               3. Research options to implement               been communicated.
                  continuous monitoring of                 3. A group has been formed to research options to
                  technologies used to collect, store,        allow for continuous monitoring. Software solutions
                  process, and disseminate IIF.               are under evaluation.

Privacy Web    Develop and update a Web site devoted       A Privacy Program Web site is established and is
site           to privacy issues.                          periodically updated (www.fdic.gov/about/privacy).
Privacy        1. Combine the security awareness and       1. Storyboards (i.e., outlines) for combining the
Training          privacy awareness modules.                  modules have been developed and are currently
               2. Develop classroom privacy training.         under review. Completion of work is planned for
                                                              March 2007.
                                                           2. Coordination is planned with the Corporate
                                                              University regarding classroom privacy training.

Privacy        Update the FDIC’s incident reporting        Incident reporting procedures have been updated to
Awareness      and response procedures to reflect the      reflect the 1-hour reporting requirement.
               1-hour reporting requirement contained
               in OMB Memorandum M-06-19.


Privacy        A PIA will be prepared for each             As of October 3, 2006, 43 PIAs had been performed for
Impact         information system containing personal      the 46 systems identified as containing IIF and posted
Assessments    information (i.e., IIF).                    on the Privacy Web site. As discussed in the report,
                                                           work is ongoing to identify all IIF maintained
                                                           throughout the Corporation.
Privacy        1. FISMA Privacy Reporting.                 1. The 2006 FISMA privacy report was issued on
Reporting      2. Section 522 Privacy Reporting.              September 28, 2006.
               3. Monthly privacy program status           2. The memorandum on the FDIC’s privacy program
                  reports.                                    was sent to the Deputy Inspector General on
                                                              September 15, 2005; a report to the Congress is
                                                              planned by the end of 2006.
                                                           3. Monthly privacy program status reports have been
                                                              produced since July 2006.
Compliance     1. Encrypt sensitive data stored on         1. Current testing and implementation schedules
with OMB          mobile computing devices.                   suggest that data on laptops will be encrypted by
Memorandum     2. Provide tokens to state bank                December 2006. Encryption of external storage
M-06-16           examiners for remote authentication.        media and Blackberry devices will follow in
               3. Finalize policy and implement               February 2007.
                  software solution to log data extracts   2. Legal issues associated with providing tokens to
                  of sensitive data.                          state bank examiners are under review. Target
                                                              completion is March 2007.
                                                           3. Draft policy is under review, and the FDIC is
                                                              evaluating several software solutions to log data
                                                              extracts.




                                                   I-21
                                                                                         APPENDIX V


                  AICPA/CICA PRIVACY FRAMEWORK CONCEPTS

The figure below highlights privacy program management concepts contained in the
AICPA/CICA’s global privacy framework entitled, Generally Accepted Privacy
Principles. Other privacy frameworks exist; the AICPA/CICA’s Framework is just one
example for consideration.




 Strategizing         Diagnosing          Implementing            Sustaining                 Auditing

  Business Risk       Policy               Business Process      Business Process          Control Self-
    Analysis            Development          Redesign              Change                    Assessment
                                                                                           − Monitor
  Privacy Strategy    Business             Human Resources       Information System          Performance
                        Processes          − Communication          Modification to          Measures
                        Analysis           − Training               Security               − Track Privacy
                      − As-Is and To-Be                             Architecture             Issues and
                        Evaluation         Information System                                Remediation
                                              Modification to    Public Notice               Efforts
                      Planned Controls        Security           − Policy Notification
                      − Compliance            Architecture and   − PIA Publication         Compliance
                      − Information           SDLC Process       − FOIA*                     Audits
                        Management                                 Management              − Section 522
                                           Functional Changes                              − FISMA
                      − Risk Management
                                           − To Business         Compliance
                                             Processes           − Awareness               Environmental
                                             Regarding Use
                                             and Collection of   − Training                  Updates
                                                                 − Regulatory              − Legislation
                                             IIF
                                                                   Reporting               − Regulations
                                                                 − Legal                   − Public
                                                                 − Third Party               Expectations
                                                                   Contracts

  Continuous
                       Gap analysis        Gap analysis          Gap analysis              Gap analysis
  Monitoring


Note: KPMG has expanded upon the AICPA/CICA’S Framework to incorporate applicable federal laws,
regulations, and business processes specific to U.S. federal agencies.
* Freedom of Information Act.
.




                                              I-22
                Part II

Corporation Comments and OIG Evaluation
CORPORATION COMMENTS AND OIG EVALUATION

The report contains six recommendations directed to the CPO. On January 4, 2007, the
CPO provided a written response to a draft of this report, dated December 11, 2006. The
CPO’s response is presented, in its entirety, beginning on page II-4. The CPO concurred
with all six of the report’s recommendations. Based on the CPO’s response, all six
recommendations are considered resolved, but they will remain open until we have
determined that agreed-to corrective actions have been completed and are effective. The
CPO’s response to each of the report’s recommendations is summarized below, along
with our evaluation of the response.

Recommendation 1: Enhance the FDIC’s privacy program by integrating key
ongoing and planned program control activities into a formally documented plan.

CPO Response: The CPO concurred with the recommendation. The CPO will enhance
the existing program plan to formally document and describe the Corporation’s privacy
program goals and objectives, performance measures, organization and relationships of
key initiatives, training and awareness strategy, and methods for reporting by
December 15, 2007.

OIG Evaluation of Response: The CPO’s response satisfies the intent of the
recommendation. The recommendation will remain open until we have determined that
agreed-to corrective action has been completed and is effective.

Recommendation 2: Implement additional measures to ensure IIF is properly
secured. Such measures could include performing periodic, unannounced
walkthroughs of FDIC facilities and reporting the results to appropriate
management officials.

CPO Response: The CPO concurred with the recommendation. The CPO will discuss
appropriate, additional control measures for securing IIF with the CIO Council by
April 15, 2007. A plan for implementing these measures will be completed by July 15,
2007. The plan will identify the date for final implementation of the measures.

OIG Evaluation of Response: The CPO’s response satisfies the intent of the
recommendation. The recommendation will remain open until we have determined that
agreed-to corrective action has been completed and is effective.

Recommendation 3: Place additional emphasis on employee and contractor
awareness to physically safeguard IIF in their custody as previously discussed in
this report.

CPO Response: The CPO concurred with the recommendation. The CPO recognizes
the importance of employee and contractor privacy awareness and has taken actions to
address this need at the FDIC. Such actions include privacy awareness training, Web site




                                       II-1
materials, conference presentations among FDIC divisions and offices, and the
promulgation of privacy policies and procedures. In addition, the CPO stated that
Division of Resolutions and Receiverships (DRR) staff in Washington D.C., and DRR
and Division of Supervision and Consumer Protection (DSC) staff in Dallas have
received business-unit-specific privacy training. However, the CPO agreed to take
several additional actions to further emphasize employee and contractor awareness
regarding the physical safeguarding of IIF in their custody by November 30, 2007. Such
actions include placing additional emphasis on physically safeguarding IIF during CIO
Council meetings and Information Security Manager (ISM) meetings, including an item
in the FDIC newsletter, and working with the FDIC’s Office of Enterprise Risk
Management (OERM) to develop a program for determining whether physical documents
containing IIF are adequately secured.

OIG Evaluation of Response: The CPO’s response satisfies the intent of the
recommendation. The recommendation will remain open until we have determined that
agreed-to corrective action has been completed and is effective.

Recommendation 4: Review all PIAs posted on the FDIC’s public Web site to
determine whether they disclose all types of IIF used by the application and
sufficiently describe the FDIC’s use of IIF consistent with OMB policy and section
208 of the E-Government Act of 2002.

CPO Response: The CPO concurred with the recommendation. The CPO stated that the
recommended actions are part of the FDIC’s standard, ongoing processes. However, the
CPO will perform a review of all currently posted PIAs to ensure that they adequately
disclose all types of IIF used by the application and sufficiently describe the FDIC’s use
of IIF consistent with OMB policy and section 508 of the E-Government Act of 2002.
The review will be completed, and any necessary corrections made, by March 15, 2007.

OIG Evaluation of Response: The CPO’s response satisfies the intent of the
recommendation. The recommendation will remain open until we have determined that
agreed-to corrective action has been completed and is effective.

Recommendation 5: Enhance current processes for preparing and publicly posting
PIAs to ensure that new PIAs adequately describe the FDIC’s collection and use of
IIF consistent with OMB policy and section 208 of the E-Government Act of 2002.

CPO Response: The CPO concurred with the recommendation. The CPO stated that the
recommended actions are part of the FDIC’s standard, ongoing processes. However, the
CPO will review current PIA posting processes to ensure that new PIAs adequately
describe the FDIC’s collection and use of IIF consistent with OMB policy and section
208 of the E-Government Act of 2002. The review will be completed, and any required
adjustments made, by March 15, 2007.




                                        II-2
OIG Evaluation of Response: The CPO’s response satisfies the intent of the
recommendation. The recommendation will remain open until we have determined that
agreed-to corrective action has been completed and is effective.

Recommendation 6: Enhance the FDIC’s SDLC processes to fully address privacy
considerations.

CPO Response: The CPO concurred with the recommendation. The CPO stated that the
FDIC’s RUP® SDLC addresses privacy considerations through the ASA, which
determines whether IIF is in an application undergoing design. If IIF is present, a PIA is
required. The CPO indicated that the PIA is used throughout the life cycle of a project,
including during the development of requirements and performance of risk assessments
and security testing and evaluation. However, the CPO recognizes that development
teams may benefit from additional resources to ensure full attention to privacy issues.
Accordingly, the CPO will add privacy roles and responsibilities to the intersecting
organizations’ portion of the FDIC’s SDLC process by June 15, 2007.

OIG Evaluation of Response: The CPO’s response satisfies the intent of the
recommendation. The recommendation will remain open until we have determined that
agreed-to corrective action has been completed and is effective.




                                        II-3
CORPORATION COMMENTS




       II-4
II-5
II-6
II-7
                                          MANAGEMENT RESPONSES TO RECOMMENDATIONS

       This table presents management’s responses to the recommendations in our report and the status of the recommendations as of the date
       of report issuance.

                                                                                                                   Open
                                                                                                              a
        Rec.                                                             Expected         Monetary   Resolved:      or
       Number     Corrective Action: Taken or Planned/Status          Completion Date     Benefits   Yes or No    Closedb
                 The CPO will enhance the existing program
                 plan to formally document and describe the
                 Corporation’s privacy program goals and
          1                                                           December 15, 2007     N/A         Yes        Open
                 objectives, performance measures, organization
                 and relationships of key initiatives, training and
                 awareness strategy, and methods for reporting.
                 The CPO will develop a plan for implementing
          2      additional control measures for safeguarding           July 15, 2007       N/A         Yes        Open
II-8




                 IIF.
                 The CPO will (a) complete planned privacy
                 briefings to DSC and DRR, (b) place additional
                 emphasis on physically safeguarding IIF during
                 CIO Council and ISM meetings, (c) promote
          3                                                           November 30, 2007     N/A         Yes        Open
                 awareness through the FDIC newsletter, and
                 (d) work with OERM to develop a program for
                 determining whether physical documents
                 containing IIF are adequately secured.
                 The CPO will review all posted PIAs to ensure
                 that they adequately disclose all types of IIF
          4                                                            March 15, 2007       N/A         Yes        Open
                 used by the application and sufficiently describe
                 the FDIC’s use of IIF.
                 The CPO will review the FDIC’s PIA posting
                 process to ensure that new PIAs adequately
          5                                                            March 15, 2007       N/A         Yes        Open
                 describe the FDIC’s collection and use of IIF.
                     The CPO will add privacy roles and
                     responsibilities to the intersecting organizations’
             6                                                                 June 15, 2007             N/A            Yes              Open
                     portion of the SDLC process.

       a
           Resolved – (1) Management concurs with the recommendation, and the planned corrective action is consistent with the recommendation.
                      (2) Management does not concur with the recommendation, but planned alternative action is acceptable to the OIG.
                      (3) Management agrees to the OIG monetary benefits, or a different amount, or no ($0) amount. Monetary benefits are considered resolved as long
                          as management provides an amount.
       b
           Once the OIG determines that the agreed-upon corrective actions have been completed and are effective, the recommendation can be closed.
II-9
